Laurel Road Student
Loan CashbackSM
Credit Card
Cardmember Agreement

Here is your new Cardmember Agreement (the
“Agreement”). It is the contract between you
and us regarding your credit card account (the
“Account”). This Agreement is being sent to you
and each Authorized User so that each of you is
aware of the terms that apply to the use of the
Account and Cards. This Agreement is effective
as soon as you, or any of your Authorized Users,
activate a Card or use the Account. It also applies
if you have not closed your Account within 30 days
after we issue the Card(s).
Definitions
We have provided a glossary containing definitions
of the terms used in this Agreement. Our
definitions rely heavily on, but deviate slightly from,
the definitions used by the Consumer Financial
Protection Bureau (“CFPB”) in connection with its
December 2011 prototype credit card agreement.
Rates and Fees Table
This Agreement references a separate document
entitled “Rates and Fees Table” that explains the
different APR’s and fees that apply to your Account.
Such Rates and Fees Table is made a part of this
Agreement between us.

Contents
1. ACCESSING AND USING YOUR ACCOUNT .. 4
• Authorized User(s)
• Convenience Checks
2. CREDIT LIMITS AND CASH ADVANCE LIMITS....5
• Credit Limit
• Cash Advance Limit
• 
Changes to Your Credit Limit and Cash
Advance Limit
3. U
 SING YOUR CARD FOR CHARGES............... 5
• Authorization of Charges
• Balance Transfers
• Recurring Charges
4. INTEREST CHARGES........................................6
• Your APRs are on the Rates and Fees Table
• Minimum Interest Charge
5. INTEREST CALCULATION................................ 6
• Interest Charge Calculation Formula
• Interest Charges and Fees are Added to The
Balances to which They Apply
• Grace Period Only Applies to Purchases
• How the Grace Period Works to Avoid
Interest on Purchases.
• When We Begin to Charge Interest
• When We Add Charges
6. FEES...................................................................9
• Transaction Fees
• Late Payment Fees
7. PAYING US......................................................... 9
• Your Bill
• Minimum Payment
• Making a Payment
• Cut-off Times, Weekends, and Holidays
8. H
 OW WE APPLY YOUR PAYMENTS.............. 10
• Crediting Payments to Your Account
• Payments in Excess of the Minimum Payment
• 
Payments Less Than or Equal To the
Minimum Payment
• How Payments Affect Your Credit Limit
• Credit Balances
9. DEFAULT AND ENFORCEMENT..................... 11
• Enforcement
10. CLOSING YOUR ACCOUNT.......................... 11
11.LOST, STOLEN OR COMPROMISED CARDS/
ACCOUNT....................................................... 12
2

12.

13.

14.

15.

16.

17. A
OF

18.

.. 4

....5

ash

... 5

...6
able

... 6

The

s
void

...9

... 9

. 10

ment
the

. 11

. 11
DS/
. 12

• Notify Us
• Liability
12. COMMUNICATIONS....................................... 12
• Mailings
• Telephone Communications
• Telephone Monitoring
• Authenticating Your Identity
• E-Mail Communications
• Changes to Your Information
13. CREDIT INFORMATION................................. 13
• Credit Information We Receive About You
• Credit Reporting We Do On Your Account
• Disputes
14. OTHER PROVISIONS.................................... 13
• A pplicable Law
• A mendments
• Assignment
• Severability
• Restrictions On Use
15. ARBITRATION PROVISION........................... 14
• Agreement to Arbitrate
• Opt-Out and Rejection Notice
• Definition of Claim
• Arbitration Process Generally
• Arbitration Fees
• Attorney Fees
• FAA
• Survival
• Contacting Arbitration Administrators
16. YOUR BILLING RIGHTS................................ 17
• Keep This Document for Future Use
• What to Do If You Find a Mistake On Your
Statement
• What Will Happen After We Receive Your
Letter
• Your Rights If You Are Dissatisfied With
Your Credit Card Purchases
17. ADDITIONAL DISCLOSURES FOR RESIDENTS
OF SPECIFIC STATES........................................... 19
• California Residents
• New York and Vermont Residents
• Ohio Residents
• Utah Residents
18. GLOSSARY OF DEFINITIONS....................... 21
3

Terms and Conditions
1. ACCESSING AND USING YOUR ACCOUNT
a. Generally. Your Account can be accessed by a Card
issued to you or to any Authorized User. Your Account may
only be used for personal, family, or household purposes.
Your Account may not be used for illegal purposes, and
it may not be used for internet gambling, or marijuana
Purchases, even if legal. You are responsible for any
use of, and Charges to, your Account by you and/or your
Authorized User(s), even if the use or Charge is prohibited
by this Agreement.
b. Authorized User(s).
i. Adding or Removing an Authorized User. Notify Us if
you want to add or remove an Authorized User on your
Account. We will ask you certain identifying information
about the Authorized User before adding them to the
Account. We reserve the right to remove any Authorized
User at any time. Any Authorized User you add must
follow all of the terms of use of this Account which apply
to you, and a failure by any Authorized User to follow
such provisions, will be deemed a failure by you to
adhere to such provisions.
ii. Communications with an Authorized User. You agree we
may share certain information with an Authorized User
regarding your Account in order to effectively administer
your Account, including transaction verifications, digital
wallet verifications, fraud disputes, and similar security
type verifications involving use of your Account by the
Authorized User. We will not share information beyond
what we believe is necessary.
c. Convenience Checks.
i. From time to time, we may provide you with Convenience
Check to access your Account. By using a Convenience
Check, you agree to follow any special terms we send
you with such Convenience Check. The amount of
your Convenience Check will be added to either a
separate Balance on the Bill (if special terms apply),
or the Purchase Balance (if no special terms apply).
Additionally, the Convenience Check Advance Fee (as
set forth in the Rates and Fees Table) will be added to
the Cash Advance Balance. NOTE: There is no Grace
Period for Charges related to Convenience Checks.
ii. Limitations. We have the right not to pay a Convenience
Check for any reason. You may not use a Convenience
Check to make a payment on your Account or any
other account with us. You must inform any person to
whom you provide a Convenience Check that they must
4

2. C

a. G
t
i
c

b. C
y
Y
y
d
A
t
c
i
e
M

c. C
a
s
c

d. C
W
a
W
s
c

3. U

a. G
A
h
A
(
T
r
o
t
s

b. A
C
a
s
l

c. B
A
f

Card
may
ses.
and
uana
any
your
bited

Us if
your
ation
the
ized
must
pply
ollow
u to

e we
User
ister
gital
urity
y the
yond

ence
ence
send
nt of
er a
ply),
ply).
e (as
ed to
race

ence
ence
any
on to
must

deposit the Convenience Check at their own depository
institution as we will not cash a Convenience Check at
our branches for non-KeyBank customers.
2. CREDIT LIMITS AND CASH ADVANCE LIMITS
a. Generally. All Cards accessing your Account are subject
to your Account’s credit and cash advance limits. Your
initial credit limit and cash advance limit are located on the
card carrier that was sent to you with your Card.
b. Credit Limit. Your credit limit is the maximum amount that
you can have outstanding on your Account at any time.
You agree not to initiate any Charges that would cause
your Account balance to exceed the credit limit. At our
discretion, we may approve a Charge that causes your
Account balance to exceed the credit limit, but we do not
treat such a Charge as a request for an increase to your
credit limit. You are responsible for paying all Charges
in excess of your credit limit immediately. All Charges in
excess of your credit limit will be included as part of your
Minimum Payment.
c. Cash Advance Limit. Your Cash Advance limit is only
a portion of your total available unused credit limit. If no
separate Cash Advance limit is listed on your Bill, then your
credit limit and your Cash Advance limit are the same.
d. Changes to Your Credit Limit and Cash Advance Limit.
Without advance notice, we may change your credit limit at
any time (which may also affect your Cash Advance limit).
We will notify you of any changes through your Bill or by
sending you a separate notice, which may be after the
change occurs.
3. USING YOUR CARD FOR CHARGES
a. Generally. You may use your Account for Purchases, Cash
Advances, or Balance Transfers. Each type of Charge will
have its own Balance. Each Balance may have a separate
APR. Certain Charges will also incur a transaction fee
(as set forth in the Rates and Fees Table) (e.g. a Balance
Transfer will incur a Balance Transfer Fee). You must
refer to the Rates and Fees Table for a complete listing
of transaction fees specific to your Account. Other nontransaction-based fees may apply to your Account. Please
see Section 6 below for an explanation of such fees.
b. Authorization of Charges. We do not guarantee this
Card will be accepted by any merchant. We may refuse to
authorize any Charge at our sole discretion, even if there is
sufficient available credit. We are not responsible for any
losses associated with a declined Charge.
c. Balance Transfers. You can transfer balances to your
Account by Notifying Us. We will charge a Balance Transfer
fee on the amount of each Balance Transfer. We permit
5

Balance Transfers from most accounts issued by other
banks. We do not permit Balance Transfers from other
accounts or loans with us or any of our affiliates. Note,
however, that if you transfer a balance using a Convenience
Check, such Charge will be treated like any other Charge
completed by a Convenience Check. (See Section 1(d)
regarding Convenience Checks).

o
5
C
p
A
a
G

d. Recurring Charges. Cardholders may authorize a thirdparty to bill Charges on a recurring basis to your Account. If
you want to stop these Charges, you must contact the third
party and direct the third party that it is no longer authorized
to make Charges to your Account. Recurring Charges
may not process if your Card number, expiration date, or
security code changes. You agree that we may, but are not
required to, transfer recurring Charges to any replacement
Card or Account. If your Account is closed or suspended
or we suspend making certain recurring Charges on your
Account, you are responsible for making alternate payment
arrangements with the affected third party.

b. I
i
M
N
P
a
F
f

4. INTEREST CHARGES
a. Your APR’s are on the Rates and Fees Table. Variable
Rates are calculated by adding together an index and a
margin. The index is the Prime Rate as published in the
“Money Rates” section of The Wall Street Journal. At
the end of your billing period, we look at the Prime Rate
as published on the last business day of the previous
calendar month to determine your index. An increase or
decrease in the index will cause a corresponding increase
or decrease in your variable rates effective as of the first
day of your billing cycle that begins in the same month in
which such change in the index is published. Your Rates
and Fees Table will indicate the “margin” applicable to your
Account. If the APR increases, you will pay a higher interest
Charge and may have a higher Minimum Payment. If The
Wall Street Journal ceases to publish the Prime Rate, or it
changes the definition of the U.S. Prime Rate, we may, in
our sole discretion, substitute another index.
b. Minimum Interest Charge. If the interest calculation for
the Billing Period (using the formula explained in Section 5
below) renders an amount greater than zero, but less than
the “Minimum Interest Charge” (as set forth in the Rates
and Fees Table), we will add the Minimum Interest Charge
to your Account in lieu of the interest from the interest
calculation. The Minimum Interest Charge is labeled as a
fee on your Bill (rather than interest), and is added to the
Purchase Balance.
5. INTEREST CALCULATION
a. Generally. Even though your Account may be accruing
interest Charges during the entire Billing Period, we only
post interest Charges to your Account once, at the end
6

(
=

T
p
f

B
+
+
+

†

W
P
P
u
C

Y
B
C
C
f
p
A

c. I
t
C
w
B
B

other
other
Note,
ence
arge
1(d)

of each Billing Period. (See formula below in subsection
5(b) for how we do this.) Because we do not post interest
Charges until the end of the Billing Period, if you make a
payment mid-Billing Period intending to pay off the entire
Account, be aware that you may not have taken into
account interest accruing on Balances not entitled to a
Grace Period.

hirdnt. If
third
ized
rges
e, or
e not
ment
nded
your
ment

b. Interest Charge Calculation Formula. We charge
interest on your Account using the Average Daily Balance
Method with Compounding (including new transactions).
Note: the Glossary also contains a definition of Daily
Periodic Rate (referred to as “DPR” in the formula below)
and Average Daily Balance (“ADB” in the formula below).
For each Balance that makes up your Account, we use the
formula below:

able
nd a
n the
l. At
Rate
ious
e or
ease
first
th in
ates
your
erest
The
or it
y, in

n for
on 5
than
ates
arge
erest
as a
o the

uing
only
end

(DPR) x (ADB) x (# of days in Billing Period)
= Interest Charges
To arrive at the ADB used in the formula above we
perform the following calculation during the Billing Period
for each specific Balance to come up with a Daily Balance:
Beginning Balance (i.e. the previous day’s Daily Balance)
+ New transactions
+ Fees specific to a particular transaction
+ Interest applicable to the previous day’s Daily Balance†
using the DPR to calculate the interest
- Payments or credits
= Daily Balance
†

We treat any credit balance as a zero balance

We add together all of the Daily Balances for the Billing
Period and then divide the number of days in the Billing
Period to arrive at the ADB. The ADB amount can then be
used in the formula above to determine the actual interest
Charges that will be added to (i.e. posted to) your Account.
You will be able to see the Interest Charges for each of the
Balances on your Bill under the section entitled “Interest
Charge Calculation.” We then add up all of the interest
Charges for each Balance to get the total interest Charges
for the Billing Period, which total can be found on the first
page of your Bill in the box labeled “Summary of Card
Activity” under the heading of “Interest Charged.”
c. Interest Charges and Fees Are Added to the Balances
to Which They Apply. We add the applicable interest
Charges to the Balances to which they apply (for example,
we add interest Charges on Purchases to the Purchase
Balance). Likewise, we add the particular fees to the
Balances to which they apply (for example, we add the
7

Balance Transfer Fee to the Balance Transfer Balance).
Note that Cash Advance Fees, and Convenience Check
Fees are added to the Cash Advance Balance. Fees
that do not apply to a particular Balance are added to the
Purchase Balance.
d. Grace Period Only Applies to Purchases. Only the
portion of the Purchase Balance attributable to Purchases
will be provided a Grace Period. Other Charges in the
Purchase Balance (such as Convenience Checks) will be
charged interest from the date of the transaction at the
disclosed APR. (For more information, see Section 1(d)
regarding Convenience Checks). Also, there is no Grace
Period for Balance Transfers or Cash Advances.
e. How the Grace Period Works to Avoid Interest on
Purchases. In order to receive a Grace Period on your
Purchases, you will need to pay in full on or before the
Due Date the “New Balance” on your Bill. As long as you
continue to pay the entire “New Balance” on your Bill on
or before the Due Date each consecutive Billing Period,
your Purchases will receive a Grace Period. If you do not
pay your Bill in full (including the amount of any special
promotions, Convenience Check offers, etc.), you will lose
your Grace Period. If you lose your Grace Period by making
only a partial payment that is at least equal to the Minimum
Payment on or before the Due Date, then in the next Billing
Period, we will apply your partial payment as of the first day
of that next Billing Period. If you lose your Grace Period,
you may earn it back by paying the entire “New Balance”
listed on any subsequent Bill. Once you have paid the New
Balance on your Bill in full on or before its Due Date, you
will receive a Grace Period for any Purchases made in
the next Billing Period (subject to loss as set forth above).
Note: in this section, the “next” Billing Period means the
Billing Period which started immediately following the
Billing Period for which you paid your Bill in full on or before
the Due Date, which Due Date falls in the Billing Period
identified in this section as the “next” Billing Period.
f. When We Begin to Charge Interest. Except as set forth
in the previous section entitled “How the Grace Period
Works to Avoid Interest on Purchases,” all Charges begin
to accrue interest from the date of the transaction (which
may be earlier than the posting date). Such Charges will
continue to accrue interest until paid in full.
g. When We Add Charges. We add Charges to your Account
no earlier than the date of the transaction. Generally,
the date of the transaction will be the sale date for the
Purchases, the date you request a Balance Transfer
or a Cash Advance, or the date the payee deposits a
Convenience Check. There may be delays in posting
Charges to your Account. Although we generally add the
fees associate with a specific Charge on the same date
8

t
w
s
o
t
s
B

6. F

a. T
s
c
B
f
F
a
i

b. L
m
e
T
t
A
M

7. P

a. Y
y
a
m
e
P
S
b

b. M
P
a

Y
o

•

•

I
N

c. M

i

nce).
heck
Fees
o the

the
ases
the
ll be
the
1(d)
race

t on
your
the
you
ll on
riod,
o not
ecial
lose
king
mum
illing
day
riod,
nce”
New
you
e in
ove).
the
the
efore
eriod

forth
eriod
egin
hich
s will

ount
rally,
the
nsfer
ts a
sting
d the
date

that we add the Charge, for non-transaction related fees,
we post them when the service is requested (e.g. when a
statement reprint is requested) or when the assessment
occurs (e.g. late fees at the end of the Billing Period). Note
that any Balance may be subdivided to accommodate for
special terms Convenience Checks or other promotional
Balances.
6. FEES
a. Transaction Fees. We charge fees in connection with
specific Charges you have initiated. For example, we
charge a Balance Transfer Fee when you request a
Balance Transfer. Please see the Rates and Fees Table
for a full listing of all of our transaction fees. The fees for
Foreign Currency Transactions (as set forth in the Rates
and Fees Table) are calculated as set forth in the definition
in the Glossary.
b. Late Payment Fees. If you make a Late Payment, we
may charge you a Late Payment fee. For a detailed
explanation of this fee, please see the Rates and Fees
Table (particularly the additional language following such
table which contains additional terms of your Cardmember
Agreement). The Late Payment Fee will not exceed the
Minimum Payment amount.
7. PAYING US
a. Your Bill. You agree to pay us all amounts that we lend
you on your Account, together with the interest Charges
and fees as provided in this Agreement. Additionally, you
may pay all or part of your Account balance at any time. For
each Billing Period, you agree to pay at least the Minimum
Payment on or before the Due Date in accordance with our
Standard Payment Instructions. If you don’t receive a Bill
by the date when you usually receive it, Notify Us at once.
b. Minimum Payment. If you do not pay the Minimum
Payment by the Due Date, we may charge you a Late Fee
and you will be in Default.
Your Minimum Payment will include any amount in excess
of your credit limit plus the greater of:
• $30.00, or
• 1% of the outstanding Balance on the Account (inclusive
of all fees other than the late fee) plus interest charges,
late fees and any past due amount.
In any case, your Minimum Payment will not exceed the
New Balance on your Bill.
c. Making a Payment.
i. By Check. You authorize us to either use information
from your check to make a one-time electronic fund
transfer from your account or to process the payment as
a check transaction.
9

ii. By Phone. If you call us to make a payment to us over
the phone, you authorize us to make such payment in
accordance with your instructions. You agree that we
may either record your oral authorization during the call
or send you notice by mail or e-mail of the authorization.
iii. When Payments are Received. When you schedule a
payment with us through our online banking website or
our mobile site before our cut-off times, we consider
the payment received by us on such date, even though
the funds associated with such payment have not been
collected by us. When you send us a check that satisfies
our Standard Payment Instructions and the physical
check arrives before our cut off times, we consider it
received upon arrival. However, if you initiate a payment
to us through another institution or third party, we will
not credit it to your Account until we receive the funds
associated with such payment. If a payment you send us
is reversed for any reason, you may be charged a late
fee and lose your Grace Period.
d. Cut-off Times, Weekends, and Holidays. You must
follow the payment instructions (including cut-off times)
provided on your Bill, as well as the Standard Payment
Instructions defined in the Glossary. To be credited on day
of receipt, payments must be received by the cut-off time.
We are not required to, but may, extend the cut-off time at
our discretion for certain electronic payment channels. If
your Due Date falls on a weekend or holiday, we will treat
mailed payments received by us by the cut-off time on our
next business day as being received by us on the Due Date.
8. HOW WE APPLY YOUR PAYMENTS
a. Crediting Payments to Your Account. As long we receive
your Minimum Payment on, or before, the Due Date, in
accordance with our Standard Payment Instructions and
before our cut off times, you will not be charged late fees.
We will credit your payment as of the day it is received,
even though there may be delays in posting the payment to
your Account. If we post a payment after the Due Date that
was received by us before the Due Date, we will adjust your
Account for late fees and interest accrual, if applicable.
We may accept and process late, partial and payments
marked as “paid in full” without losing our rights under this
Agreement. Any such payments must be sent to the special
address identified on your Bill.
b. Payments in Excess of the Minimum Payment. If you
make more than the Minimum Payment when due, the
excess above the Minimum Payment is applied to Balances
with the highest APRs first, unless otherwise required by
law.
c. Payments Less Than or Equal to the Minimum
Payment. We may apply the amount of your payment less
10

t
y
t
y

d. H
i
u
D
y
a
c
T
f
y
m
b
c
a
r

e. C
b
a
b

9. D

a. G
A
w
B
a
D
y
a
A

b. E
a
e
o
t

10. C

a. C
a
A
fi
w
u
P
C
c
s
A

over
nt in
t we
call
tion.

ule a
te or
sider
ough
been
sfies
sical
er it
ment
will
unds
d us
late

must
mes)
ment
day
ime.
me at
ls. If
treat
n our
Date.

eive
e, in
and
ees.
ved,
nt to
that
your
able.
ents
this
ecial

you
the
nces
d by

mum
less

than or equal to your Minimum Payment and any credits to
your Account in any way we choose. We generally apply
these payments to lower APR Balances first, which means
you may pay higher interest Charges.
d. How Payments Affect Your Credit Limit. We do not
immediately increase the amount of total available credit
under your Credit Limit upon receipt of your payment.
Depending upon your payment amount and other factors,
you may not be able to reborrow the payment amount for
a reasonable amount of time to ensure your payment has
cleared, depending upon the payment method you chose.
This allows us a reasonable amount of time to collect the
funds associated with your payment and help you manage
your Credit Limit to avoid over limit situations. When you
make a payment to us from an account that is not controlled
by us, you should reference the disclosures provided in
connection with such payment channel to determine the
approximate amount of time that it takes such payment to
reach us.
e. Credit Balances. You may request a refund of credit
balances at any time. If no refund is requested, we will
apply credit balances to new Charges, unless prohibited
by law.
9. DEFAULT AND ENFORCEMENT
a. Generally. If your Account is in Default, we may close your
Account or terminate or suspend your credit privileges
without notice and require full payment of your outstanding
Balance immediately. We can also begin collection
activities. To the extent permitted by law, if you are in
Default because you have failed to pay us, we will require
you to pay our collection costs, attorneys’ fees, court costs
and all other expenses of enforcing our rights under this
Agreement.
b. Enforcement. We may choose to delay enforcing or waive
any of our rights under this Agreement. We can delay
enforcing or waive any of our rights without affecting our
other rights. If we waive a right, we do not thereby waive
the same right in other situations.
10. CLOSING YOUR ACCOUNT
a. Closing Your Account. You may close your Account at
any time by Notifying Us. We may close or suspend your
Account at any time for any reason without telling you
first. If there are any unpaid amounts on your Account
when it is closed, you remain responsible for paying all
unpaid amounts. After closure, we will no longer authorize
Purchases, Balance Transfers, Cash Advances or other
Charges initiated by you, but your Account Balances will
continue to accrue interest Charges and fees and remain
subject to all other terms of this Agreement. As long as your
Account is not in Default, you will be permitted to pay your
11

Bill monthly until your Account is paid in full. If your Account
is in Default when it is closed, please refer to Section 9
of this Agreement regarding Default and Enforcement for
further information as to payment responsibilities.
11. LOST, STOLEN, OR COMPROMISED CARDS/ACCOUNT
a. Notify Us. You must Notify Us immediately and stop using
your Account.
b. Liability. You will not be liable for any unauthorized use
that occurs after you Notify Us. You may, however, be liable
for unauthorized use that occurs before you Notify Us. In
any case, your liability will not exceed $50. A Charge that
falls into the definition of an Authorized Charge will not be
considered unauthorized use.
12. COMMUNICATIONS
a. Mailings. We will send Bills and other Account related
communications to your Address On File, which may also
include an alternate address you have provided us for
specific purposes we agree upon. We will not send a new
or replacement Card to a post office box or to your Address
On File if it has recently changed.
b. Telephone Communications. By providing a telephone
number for a cellular telephone, other wireless device, or
a landline number that was later converted to a wireless
device, you are expressly consenting to receiving
communications at that number, including, but not limited
to, prerecorded or artificial voice message calls, text
messages, and calls made by an automatic telephone
dialing system from Laurel Road, a brand of KeyBank
National Association, Member FDIC, and its affiliates
and agents. This express consent applies to each such
telephone number that you provide to us now or in the
future and permits such calls regardless of their purpose.
These calls and messages may incur access fees from
your cellular provider. Some of the legal purposes for calls
and messages include: suspected fraud or identity theft,
obtaining information; transacting on or servicing of the
Account; collecting on the Account, and providing you
information about product and services.
c. Telephone Monitoring. We may listen to and record your
telephone calls with us.
d. Authenticating Your Identity. When you call us, we may
ask you certain information to be comfortable it is you we
are talking to. We may also ask for such information when
you are writing to us via mail or signing on to our online
banking site or our mobile site. We will not ask you via
e-mail to provide us any identifying information so be aware
not to respond to any phishing e-mails.
e. E-Mail Communications. We may also send an email to
any e-mail address you have provided us or any e-mail
12

a

f. C
U
A
y
o
U

13. C

a. C
o
a
s
s
d
r

b. C
i
a
U
o
c
U
U

c. D
w
l
Y

14. O

a. A
b
a
a

b. A
o
f
t
l

c. A
A
n
s
Y

d. S
1
d
o
r

ount
on 9
t for

UNT

sing

use
able
s. In
that
ot be

ated
also
s for
new
ress

hone
e, or
eless
ving
mited
text
hone
Bank
ates
such
the
ose.
from
calls
heft,
the
you

your

may
u we
when
nline
u via
ware

ail to
mail

address where we reasonably believe we can contact you.
f. Changes to Your Information. You are required to Notify
Us any time you move or otherwise want to change your
Address On File. Notify Us immediately of any changes to
your phone numbers, e-mail address, Address On File or
other contact information. Please see definition of “Notify
Us” for methods of contacting us.
13. CREDIT INFORMATION
a. Credit Information We Receive About You. We may
obtain and review your credit history from credit reporting
agencies and others, including in connection with the
servicing and collection of your Account. As a part of
servicing, we will review your Account on a regular basis to
determine if you are eligible for certain promotional offers
related to your Account, and you authorize us to do so.
b. Credit Reporting We Do on Your Account. We provide
information about this Account to consumer reporting
agencies and others for you as well as for any Authorized
User. As Authorized Users are not liable for repayment
of this Account, an Authorized User may request that we
cease reporting this Account for him or her. If an Authorized
User makes such a request, we will remove the Authorized
User from the Account.
c. Disputes. If you think we provided incorrect information,
write to us at the address provided in the section of your Bill
labeled “What To Do If You Think You Find A Mistake On
Your Statement” and we will investigate.
14. OTHER PROVISIONS
a. Applicable Law. This Agreement and the Account will
be governed by federal law, and to the extent state law is
applicable, the laws of the state of Ohio, and these laws will
apply no matter where you live or use this Account.
b. Amendments. We may change or terminate all or any part
of this Agreement, including without limitation APRs and
fees, at any time. We may also add new terms or delete
terms. Any changes will be in accordance with applicable
law, and we will provide notice as required by law.
c. Assignment. We may sell, Assign, or transfer the
Agreement and the Account or any portion thereof without
notice to you, and the purchaser, assignee, or transferee
shall have the same rights as we do under this Agreement.
You may not sell, Assign, or transfer the Account.
d. Severability. Except as specifically provided in Section
15 below, if any provision of this Agreement is finally
determined to be void or unenforceable under any law, rule
or regulation, all other provisions of this Agreement will
remain valid and enforceable.
13

e. Restrictions on Use. We may restrict use of your Card
in any jurisdiction or country where such use would be
contrary to U.S. law or regulation, or which is identified as
presenting a high risk of fraud. Please call 1-800-KEY2YOU
for the current list of countries where Charges are restricted.
15. ARBITRATION PROVISION
This Arbitration Provision will not apply to new
accounts opened on or after October 3, 2017 by
Covered Borrowers as such term “Covered Borrower”
is defined by the Military Lending Act, 10 U.S.C. 987 e.
seq. and its implementing regulations.
a. Agreement to Arbitrate. This Arbitration Provision sets
forth the circumstances and procedures under which a
Claim or Claims (as defined below) may be arbitrated
instead of litigated in court. This Arbitration Provision
supersedes and replaces any existing arbitration between
you and us.
b. Opt-Out and Rejection Notice. You have a limited right
to opt-out of this Arbitration Provision. If you do not follow
the opt-out procedures set forth in this section exactly, the
Arbitration Provision section will apply. This Arbitration
Provision will apply to this Account unless you
notify us in writing that you reject the Arbitration
Provision within 60 days of opening this Account.
Send your rejection notice to KeyBank N.A., PO Box
93752, Cleveland, Ohio 44101-5752. Your notice must
be legible and include your name, the names of any
joint Account holders and the Account number(s),
the last four digits of your card number, the date of
your notice, your address (street, city, state and zip
code), your daytime telephone number, and must be
signed by at least one of the joint Account holders.
Your rejection notice should not include any other
correspondence. Calling us to reject the Arbitration
Provision or providing notice by any other manner
or format than as described above will not operate
as a rejection of this Arbitration Provision and
consequently this Arbitration Provision will become
part of this Agreement. Rejection of this Arbitration
Provision does not serve as a rejection of any other
term or condition of the Agreement with us governing
your Account(s).
c. Definition of Claim. As used in this Arbitration Provision,
the word “Claim” or “Claims” means any claim, dispute, or
controversy between you and us arising from or relating to
this Agreement or the Account, including without limitation,
the validity, enforceability, or scope of the Arbitration
Provision or this Agreement. “Claim” or “Claims” includes
claims of every kind and nature, whether pre-existing,
present or future, including without limitation, initial claims,
14

c
c
t
e
o
g
o
c
s
f
p
A
A
u
C
o
t
d

d. A
w
a
t
b
A
f
b

A
o
P
A
t
m
a
u
t
i
y
o
a
t
t
y
s
s
(
l
t
p
e
a

Card
d be
d as
YOU
cted.

new
by
wer”
87 e.

sets
ch a
ated
sion
ween

right
ollow
, the
tion
you
tion
unt.
Box
must
any
r(s),
e of
zip
t be
ers.
ther
tion
nner
rate
and
ome
tion
ther
ning

sion,
e, or
ng to
tion,
ation
udes
ting,
ims,

counterclaims, cross-claims, and third-party claims, and
claims based upon contract, tort, fraud, and other intentional
torts, constitutions, statutes, regulation, common law, and
equity (including, without limitation, any claim for injunctive
or declaratory relief). The word “Claim” or “Claims” is to be
given the broadest possible meaning and includes, by way
of example, and without limitation, any claim, dispute, or
controversy that arises from or relates to (a) any Account
subject to the terms of this Agreement (b) any electronic
funds transfer from or to any Account (c) advertisements,
promotions, or oral and written statements related to this
Agreement or the Account, (d) your application for the
Account; and (e) the collection of amounts owed by you to
us. Notwithstanding this arbitration provision, if you have a
Claim that is within the jurisdiction of the small claims court
or your state’s equivalent court, you may file your Claim
there. If that Claim is transferred, removed or appealed to a
different court, then we have the right to choose arbitration.
d. Arbitration Process Generally. This Arbitration Provision
will not apply to Claims previously, or which are later
asserted, in lawsuits filed before the effective date of
this Arbitration Provision or any prior arbitration provision
between you and us, whichever is earlier. However, this
Arbitration Provision will apply to all other Claims, even if the
facts and circumstances giving rise to the Claims existed
before the effective date of this Arbitration Provision.
Any Claim shall be resolved, upon the election of you
or us, by binding arbitration pursuant to this Arbitration
Provision and the applicable rules of either the American
Arbitration Association or J.A.M.S/Endispute in effect at
the time the Claim is filed (the “Arbitration Rules”). You
may select one of these organizations to serve as the
arbitration administrator if you initiate an arbitration against
us or if either you or we compel arbitration of a Claim that
the other party has brought in court. In addition, if we
intend to initiate an arbitration against you, we will notify
you in writing and give you twenty (20) days to select
one of these organizations to serve as the arbitration
administrator. If you fail to select an administrator within
that twenty (20)-day period, we will select one. In all cases,
the arbitrator(s) should be a lawyer with more than ten (10)
years of experience or a retired judge. If for any reason the
selected organization is unable or unwilling or ceases to
serve as the arbitration administrator, you will have twenty
(20) days to select a different administrator from the above
list; if you fail to select a different administrator within the
twenty (20)-day period, we will select one. In all cases, a
party who has asserted a Claim in a lawsuit in court may
elect arbitration with respect to any Claim(s) subsequently
asserted in that lawsuit by any other party or parties.
15

IF ARBITRATION IS CHOSEN BY ANY PARTY WITH
RESPECT TO A CLAIM, NEITHER YOU NOR WE WILL
HAVE THE RIGHT TO LITIGATE THAT CLAIM IN COURT
OR HAVE A JURY TRIAL ON THAT CLAIM, OR TO
ENGAGE IN PRE-ARBITRATION DISCOVERY EXCEPT
AS PROVIDED FOR IN THE APPLICABLE ARBITRATION
RULES. FURTHER, YOU WILL NOT HAVE THE RIGHT
TO PARTICIPATE AS A REPRESENTATIVE OR MEMBER
OF ANY CLASS OF CLAIMANTS PERTAINING TO
ANY CLAIM SUBJECT TO ARBITRATION EXCEPT AS
SET FORTH BELOW. THE ARBITRATOR’S DECISION
WILL BE FINAL AND BINDING. YOU UNDERSTAND
THAT OTHER RIGHTS THAT YOU WOULD HAVE
IF YOU WENT TO COURT MAY ALSO NOT BE
AVAILABLE IN ARBITRATION. THE FEES CHARGED
BY THE ARBITRATION ADMINISTRATOR MAY BE
GREATER THAN THE FEES CHARGED BY A COURT.
There shall be no authority for any Claims to be arbitrated
on a class action or private attorney general basis.
Furthermore, arbitration can only decide your or our
Claim(s) and may not consolidate or join the claims of
other persons that may have similar claims. There shall be
no pre-arbitration discovery except as provided for in the
applicable Arbitration Rules. Any arbitration hearing that
you attend shall take place in the federal judicial district of
your residence.
e. Arbitration Fees. At your written request, we will pay
all fees charged by the arbitration administrator for any
Claim(s) asserted by you in the arbitration, after you have
paid an amount equivalent to the fee, if any, for filing such
Claim(s) in state or federal court (whichever is less) in the
judicial district in which you reside. (If you have already
paid a filing fee for asserting the Claim(s) in court, you will
not be required to pay that amount again.) If the arbitrator
issues an award in our favor, you will not be required to
reimburse us for any of the fees we have previously paid to
the administrator or for which we are responsible.
f. Attorney Fees. Each party shall bear the expense of that
party’s attorneys’, experts’, and witness fees, regardless of
which party prevails in the arbitration, unless applicable law
and/or this Agreement gives you the right to recover any
of those fees from us. In the event you do not prevail in
the arbitration, we will not seek to recover our attorneys’,
experts’ or witness fees from you.
g. FAA. This Arbitration Provision is made pursuant to a
transaction involving interstate commerce, and shall be
governed by the Federal Arbitration Act (“FAA”), 9 U.S.C.
Sections 1 et. seq. The arbitrator shall apply applicable
substantive law consistent with the FAA and applicable
statutes of limitations and shall honor claims of privilege
16

r
s
t
a
c
a
c
fi
b
e
a
a
r
i
o
a
t

h. S
t
a
o
t
t
c
R
P

i. C
q
t
t
t
B
a
J
1
5

16. Y

a. K
y
C

b. W
y
a
g

•

•

•

WITH
WILL
URT
TO
EPT
ION
GHT
BER
TO
T AS
ION
AND
AVE
BE
GED
BE
URT.

recognized at law, and at the timely request of any party,
shall provide a brief written explanation of the basis for
the award. In conducting the arbitration proceeding, the
arbitrator shall not apply the federal or any state rules of
civil procedure or rules of evidence. Judgment upon the
award rendered by the arbitrator may be entered in any
court having jurisdiction. The arbitrator’s decision will be
final and binding, except for any right of appeal provided
by the FAA and except that, if the amount in controversy
exceeds $10,000.00 any party can appeal the award to
a three-arbitrator panel administered by the arbitration
administrator which shall reconsider de novo (i.e. without
regard to the original arbitrator’s findings) any aspect of the
initial award requested by the appealing party. The decision
of the panel shall be by majority vote. The costs of such an
appeal will be borne by the appealing party regardless of
the outcome of the appeal.

ated
asis.
our
s of
ll be
n the
that
ct of

h. Survival. This Arbitration Provision shall survive
termination of all Accounts subject to this Agreement. If
any portion of this Arbitration Provision is deemed invalid
or unenforceable under any law or statute consistent with
the FAA, it shall not invalidate the remaining portions of
this arbitration provision or the Agreement. In the event of a
conflict or inconsistency between the applicable Arbitration
Rules and this Arbitration Provision, this Arbitration
Provision shall govern.

pay
any
have
such
n the
eady
u will
rator
ed to
id to

i. Contacting Arbitration Administrators. If you have a
question about the arbitration administrators mentioned in
this Arbitration Provision or would like to obtain a copy of
their Arbitration Rules or fee schedules, you can contact
them as follows: American Arbitration Association, 1633
Broadway, 10th Floor, New York, New York 10019, www.
adr.org, (800) 778-7879. Commercial or Consumer Rules,
J.A.M.S./Endispute, 222 South Riverside Plaza, Suite
1850, Chicago, IL 60606; www.jamsadr.com (800) 3525267, Financial Services Arbitration Rules and Procedures.
16. YOUR BILLING RIGHTS

that
ss of
e law
any
ail in
eys’,

a. Keep This Document for Future Use. This notice tells
you about your rights and our responsibilities under the Fair
Credit Billing Act.

to a
l be
S.C.
able
able
lege

• Account information: Your name and Account number.

b. What to Do If You Find a Mistake On Your Statement. If
you think there is an error on your statement, write us at the
address shown on your Monthly Statement. In your letter,
give us the following information:
• Dollar amount: The dollar amount of the suspected error.
• Description of the problem: If you think there is an error
on your Bill, describe what you believe is wrong and why
you believe it is a mistake.
17

You must contact us:
• Within 60 days after the error appeared on your Monthly
Statement.
• At least 3 business days before an automated payment
is scheduled, if you want to stop payment on the amount
you think is wrong.
You must notify us of any potential errors in writing. You
may call us, but if you do, we are not required to investigate
any potential errors and you may have to pay the amount
in question.
c. What Will Happen After We Receive Your Letter. When
we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the
Bill is correct.
While we investigate whether or not there has been an
error:
• We cannot try to collect the amount in question, or report
you as delinquent on that amount.
• The charge in question may remain on your Monthly
Statement, and we may continue to charge you interest
on that amount.
• While you do not have to pay the amount in question,
you are responsible for the remainder of your Balance.
• We can apply any unpaid amount against your credit
limit.
After we finish our investigation, one of two things will
happen:
• If we made a mistake: You will not have to pay the
amount in question or any interest or other fees related
to that amount.
• If we do not believe there was a mistake: You have to pay
the amount in question, along with applicable interest
and fees. We will send you a statement of the amount
you owe and the date payment is due. We may then
report you as delinquent if you do not pay the amount
we think you owe.
If you receive our explanation but still believe your Bill is
wrong, you must write to us within 10 days telling us that
you still refuse to pay. If you do so, we cannot report you
as delinquent without also reporting you are questioning
your Bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those
18

o
b

I
t
B

d. Y
C
o
y
m
a

T

1

2

3

I
d
a

W
d
i
w
r

17. A
S

a. C
w
A
o
o
o
a
i
C

b. N
u
c
a
m
f
v

nthly

ment
ount

You
gate
ount

When

you
f we

ither
e the

organizations know when the matter has been settled
between us.
If we do not follow all of these rules above, you do not have
to pay the first $50 of the amount you question, even if your
Bill is correct.
d. Your Rights If You Are Dissatisfied With Your Credit
Card Purchases. If you are dissatisfied with the goods
or services that you have purchased with your Card, and
you have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the remaining
amount due on the Purchase.
To use this right, all of the following must be true:
1. The Purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the Purchase price must have been more than $50.
(Note: Neither of these are necessary if your purchase
was based on an advertisement we mailed to you, or if
we own the company that sold the good or services.)

n an

2. You must have used your Card for the Purchase.
Purchases made with cash advances from an ATM or
with a check that accesses your Account do not qualify.

eport

3. You must not yet have fully paid for the Purchase.

nthly
erest

If all of the criteria above are met and you are still
dissatisfied with the Purchase, contact us in writing at the
address shown on your Monthly Statement.

tion,
ce.

redit

While we investigate, the same rules apply to the
disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point, if
we think you owe an amount and you do not pay, we may
report you as delinquent.

will

17. ADDITIONAL DISCLOSURES FOR RESIDENTS OF
SPECIFIC STATES

the
ated

pay
erest
ount
then
ount

a. California Residents. We will generally provide you
with thirty (30) days’ prior written notice if we cancel your
Account unless: (i) otherwise requested by you; (ii) you are,
or have been, within the last ninety (90) days, in default,
or otherwise in violation of the terms of this Agreement;
or (iii) we have evidence, or a reasonable belief, that you
are unable or unwilling to repay the obligations you have
incurred hereunder or that an unauthorized use of your
Card has occurred.

Bill is
that
you
ning
hom
hose

b. New York and Vermont Residents. You agree to give
us permission to obtain one or more credit reports from
consumer reporting agencies in connection with this
application, any transaction or extension of credit that
may result from this application, and on an ongoing basis,
for the purposes of performing a routine and occasional
verification of credit on the Account, updating or renewing
19

the Account, adjusting the credit limit on the Account,
taking collection action on the Account, or for any other
legitimate purposes associated with the Account. Upon
your request, you will be informed of whether or not a
consumer credit report was ordered, and if it was, you will
be given the name and address of the consumer reporting
agency that furnished the report.
c. Ohio Residents. The Ohio laws against discrimination
require that all creditors make credit equally available to all
creditworthy customers and that credit reporting agencies
maintain separate credit histories on each individual upon
request. The Ohio Civil Rights Commission administers
compliance with the law.

Gl

Each
exce
we,
the d
a pa

Ter

Acc

Add
File

d. Utah Residents. As required by Utah law, you are hereby
notified that a negative credit report reflecting on your
credit record may be submitted to a credit reporting agency
if you fail to fulfill the terms of your credit obligations.

Agr

APR
Per
Rat

Ass

Aut
Cha

20

ount,
other
Upon
ot a
u will
rting

ation
o all
ncies
upon
sters

Glossary of Definitions

Each term that is capitalized in this section is defined by us,
except that we do not capitalize the words “you, your, yours,
we, us, our,” but such terms will have the meanings set forth in
the definitions below. All of the definitions in this Section 18 are
a part of the Agreement between us.
Terms:

Definitions

Account

Defined in the first paragraph of this Agreement

Address On
File

Your Address On File is the address that you
provided on your application to open this credit
card Account, unless (1) we have received and
processed your written notice of a change of
address provided in accordance with the terms
disclosed on the back of your Bill, in which case
that new address is the address of record; or (2)
in the event that your address changes before
we have sent out your first Bill, we have received
and processed your written notice of a change
of address sent to us at the address for mailing
payments.

Agreement

Defined in the first paragraph of this Agreement

reby
your
ency

APR or Annual APR or “annual percentage rate” is an annualized
Percentage
interest rate. Different APRs may apply to different
Rate
balances on your Account, such as your Purchase
Balance or your Cash Advance Balance. We use
the APR that applies to each Balance to calculate
the interest that you owe us on the Account.
Assign

We Assign your Agreement if we sell or pass to
a third party any or all of our rights or obligations
under the Agreement, including any amount that
you owe under the Agreement. Subject to the
extent of the assignment, any party to whom we
Assign your Agreement will enjoy all our rights
under the Agreement, including contractual rights
to collect amounts that you owe on the Account.

Authorized
Charge

• An Authorized Charge is any Charge that you
or any Authorized User makes on the Account,
and any fees and interest charges owing on the
Account.
• Any Charge made by an Authorized User is an
Authorized Charge. This is true even if you told the
Authorized User not to make that specific Charge.
• A Charge will still be authorized even if it is an
illegal transaction (like illegal gambling charges),
or it puts you over your credit limit, or it is made
after your Account has closed.
• An Authorized Charge can be made over the
telephone, in person, on the Internet, or in any
other way that your Account can be used.

21

Authorized
User

Average
Daily Balance
Method With
Compounding

If you ask us to issue a Card on this Account to
another person, he or she is an Authorized User.
In addition, if you give your Card or Card number
to another person, he or she is an Authorized User.
According to this method, we calculate the interest
Charges for each Balance by applying the “daily
periodic rate” for that Balance to the “average daily
balance” for that Balance. We multiply the result by
the number of days in the Billing Period. That gives
us the total interest charges for that Balance for that
Billing Period.
The “Daily Periodic Rate” is a daily interest rate.
The Daily Periodic Rate for a given Balance is equal
to the APR for that Balance divided by 365.
We calculate the “average daily balance” for each
balance. We do this by starting with the beginning
amount of that Balance for each day. We add any
new Charges for that day, add any interest on the
previous daily balance if there is one in that Billing
Period, and subtract any payments or credits.
This gives us the “daily balance.” We calculate the
“average daily balance” for each Balance by adding
all the daily balances for each day in the Billing
Period and then dividing by the total number of days
in the Billing Period. The addition of the prior day’s
interest to the daily balance calculation causes
interest to compound daily.
We add fees that are specific to a particular Charge
to the same daily balance as that particular Charge.
We add all other applicable fees to your Purchase
Balance as of the first day of a Billing Period.

Balance

1. We put each Charge on your Account, including
interest or fees, into a Balance category.

Bala
Tran

Billi
(als
to b
Billi

Bill
refe
by u
you
Sta

Car

Car

Cas

2. We use the different Balances to calculate the
correct interest Charges on your Account. If any
type of Charge has a separate interest rate, we
will put it into a separate Balance. This means
that your Account may have separate Balances
for Purchases, Cash Advances, and Balance
Transfers. It also means that if any Charges are
subject to an introductory or other promotional
interest rate for a period, we will place such
Charges into a separate Balance for the time
period that you qualify for the special rate.
3. We place interest Charges into the Balance
that generated those Charges. For example, we
place interest Charges on Purchases into your
Purchase Balance.
4. We place fees that result from a specific Charge
into the same Balance as that specific Charge.
For example, we place a Foreign Transaction
Fee that we assess on a Cash Advance into your
Cash Advance Balance. We place fees that do
not result from a specific Charge, such as a Late
Payment fee, into your Purchase Balance.
22

Cha

Dai
Rat

t to
ser.
ber
ser.

est
aily
aily
by
ves
hat

ate.
ual

ach
ing
any
the
ing
dits.
the
ing
ing
ays
ay’s
ses

rge
ge.
ase

ing

Balance
Transfer

You make a Balance Transfer when you contact us
to transfer a Balance electronically or by phone.

Billing Period
(also referred
to by us as the
Billing Cycle)

• The Billing Period is the fixed period of time
covered by the Bill we send you. The Bill will
show your new Charges, including interest and
fees, and any payments that posted to your
Account during that period. Each Bill that we
send will identify the Billing Period that it covers.
• If you have a credit or debit on the Account of $1
or more at the end of any Billing Period, we will
send you a Bill, showing what you owe us as of
the end of that Billing Period.

Bill (also
referred to
by us as
your Monthly
Statement)

• Your Bill is the statement of your Account. Your
Bill will tell you the total amount that you owe us
as of the end of the last Billing Period. It will also
tell you the Minimum Payment that you must
make to us by the stated Due Date.
• We will send you a Bill at the end of each Billing
Period if at that point you have a credit or debit on
the Account equal to or more than $1. We may
not send you a Bill, however, if we have decided
your Account is uncollectible or if we have sent
the Account for collection proceedings against
you.
• In our discretion, we may choose to send you
a Bill even if you do not have a credit or debit
of $1 or more.

Card

Your Card is the physical Card, the Account
number, or any device that can be used to access
your Account.

Cardholder(s)

You and/or any Authorized User

Cash Advance

You receive a Cash Advance when you use your
Card or Account to do any of the following:

the
any
we
ans
ces
nce
are
nal
uch
me

nce
we
our

rge
ge.
ion
our
do
ate

1. obtain cash from an automated teller machine
(ATM); or
2. obtain cash from any other source; or
3. make a wire transfer; or
4. buy foreign currency; or
5. buy traveler’s checks; or
6. buy money orders; or
7. buy Lottery tickets; or
8. buy gambling chips and wagers.
Charge

Any transaction (i.e. a Purchase, Balance Transfer,
or Cash Advance), interest, or fee, regardless of
how such Charge is made (by Card, automatic
posting or otherwise).

Daily Periodic
Rate or DPR

DPR stands for "Daily Periodic Rate." This is a daily
interest rate. The daily periodic rate or DPR for a
given Balance is equal to the APR on that Balance
divided by 365.
23

Default

You are in Default on the Account if:
1. You do not make at least the Minimum
Payment when it is due; or

For
Tran

2. You have exceeded one or more of your credit
limits; or
3. A payment you make is rejected or cannot be
processed; or
4. You provide us false, misleading, or fraudulent
information; or
5. You fail to comply with any term of the
Agreement; or
6. You are bankrupt, or insolvency proceedings
are filed against you; or
7. We believe you may be unwilling or unable to
pay your debts on time; or
8. You die or are legally declared incompetent or
incapacitated; or
9. We become aware that you are using your
Card for illegal or fraudulent purposes.
Due Date

• The Due Date is the date by which we must
receive your payment in order for it to be on time.
Your Bill lists the Due Date.
• Your Due Date will always fall on the same
calendar day of the month. It will be at least 21
days from the date that we send you the Bill,
and at least 25 days from the end of your most
recently ended Billing Period.
• To be on time, we must receive your payment
on or before the Due Date and by the time
stated on your Bill. If the Bill does not state a
time, then your payment is on time if we receive
it by 5 pm on the Due Date. The 5 pm deadline is
measured in the time zone in which we receive
the payment, which may not be your time zone.
• If we do not receive or accept payments by mail
on the Due Date, your payment will be on time
if it is received by the next day that we accept or
receive payments by mail.

Gra

Late

Min
Pay
(als
to b
the
Mon
Pay

Not

Prim

24

um

Foreign
Transaction

• A Foreign Transaction is a Purchase and/
or Cash Advance that you either (i) make in a
foreign currency, or (ii) make outside of the
United States or its territories, even if made in
U.S. dollars.
• Transactions you initiate in the United States
through the internet may be considered made
outside the United Sates if the merchant
is located outside of the United Sates, and
therefore may be considered a Foreign
Transaction.
• Regardless of the above language, Key will not
treat as a Foreign Transaction any transaction
that is both (i) made in Canadian dollars or U.S.
dollars, and (ii) made with a merchant whose
business is located in Canada and/or the United
States or the territories of the United States.
• Foreign Transactions may be assessed a
Foreign Transaction Fee as set forth in the
Rates and Fees Table.
• Mastercard International (“Mastercard”) will
convert foreign currency transactions using
a government-mandated or wholesale rate in
effect on the processing date (which may differ
from the rate on the date of your transaction or
the posting date). The rate used may differ from
the rate that Mastercard actually receives.

Grace Period

A Grace Period exists with respect to Purchases
when you do not have to pay interest on those
Purchases. See Section 5 of the Agreement which
explains how a Grace Period may apply to your
Account.

Late Payment

A Late Payment is your failure to make at least the
Minimum Payment so that it reaches us by or before
the time and Due Date on your Bill.

Minimum
Payment
(also referred
to by us as
the Minimum
Monthly
Payment)

Refer to Section 7 of the Agreement for the
definition and calculation of the Minimum Payment.
We also list your Minimum Payment amount on
your Bill.

Notify Us

Call us at the phone number provided on your
Bill or the back of your Card, or write to us at the
appropriate address indicated on your Bill (note
there are multiple addresses on your Bill and you
must choose the address appropriate to your
reason for contacting us).

Prime Rate

This is the U.S. Prime Rate published in the
Wall Street Journal. If the Wall Street Journal no
longer publishes a prime rate, we will use a similar
published rate that we choose.

edit
be

ent

the

ngs

e to

t or

our

ust
me.

me
21
Bill,
ost

ent
me
ea
eive
e is
eive
ne.
mail
me
t or

25

Protected
Balances

Protected Balances are amounts owing on the
Account that under law are not subject to an
increase in interest rates or fees. In general, a
protected balance includes any charge incurred
before or within 14 days after we send notice
of such an increase. If you receive notice of an
increase in an interest rate, the notice will tell you
the Charges to which the new rate will apply.

Purchases

A Purchase is the use of your Card to buy or lease
products or services. The purchase of cash or cash
equivalents, like casino chips or lottery tickets, is a
Cash Advance, not a Purchase.

Returned
Payment

• This is a payment that you make to us that is not
honored by your financial institution.
• Although we do not charge a Returned Payment
fee, your financial institution may impose fees on
you for the Returned Payment.
• At our discretion, we may re-submit a Returned
Payment to your financial institution.

Standard
Payment
Instructions

You must pay your credit card Bill in a manner that
meets all the following conditions:
1. You must pay in U.S. Dollars; and
2. You must not pay in cash, unless you pay at one
of our branches; and
3. Except for payments made pursuant to (2) above,
your payment must be drawn on a U.S. deposit
account, or by a cashier’s check drawn on a U.S.
bank or a foreign bank branch in the U.S.; and
4. You must not attach any restrictive language to
your payment; and
5. You must not pay from a credit account that we
provide you, such as a check drawn on any credit
card account that you have with us; and
6. If you make payment in a paper form (like a
check, money order, or cashier’s check), you must
include the payment coupon from your statement
OR write your credit card Account number on the
payment.
In addition:
7. If we decide in our discretion to accept a form
of payment that does not meet these Standard
Payment Instructions, we do not waive our rights
to continue to require payments that comply with
these instructions; and
8. If we decide in our discretion to accept a payment
that you make to us in a foreign currency, we will
choose the conversion rate.

we, us,
and our

Laurel Road, a brand of KeyBank National
Association, the issuer of your Account and Cards

26

Wo
Arra

you
and

the
an
, a
red
ice
an
you

ase
ash
sa

not

Workout
Arrangement

This is a special arrangement between us and
you in which we agree to a temporary reduction in
applicable interest rates or fees in return for your
agreement to follow a defined payment schedule.
Any such agreement will be in writing. It may provide
that upon completion of the workout arrangement
or upon your failure to comply with the terms of the
workout arrangement, interest rates and fees may
increase up to the same terms as were in effect
before the workout arrangement.

you, your,
and yours

Any person who applied for the Account and any
other person liable on the Account by any other
means.

ent
on

ned

hat

one

ve,
osit
U.S.

e to

we
edit

e a
ust
ent
the

orm
ard
hts
with

ent
will

nal
ds

27

Laurel Road is a brand of KeyBank, Member FDIC. ©2021 KeyCorp.
012021CRQS-15

